HHS/OIG, Audit -"Review of Outpatient Observation Services Billed to medicare by Exempla Lutheran Medical Center Wheat Ridge, Colorado,"(A-07-01-02094)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Observation Services Billed to Medicare by Exempla
Lutheran Medical Center Wheat Ridge, Colorado," (A-07-01-02094)
October 31, 2002
Complete
Text of Report is available in PDF format (344 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether outpatient observation services
billed by the Hospital met the Medicare reimbursement requirements.  Our review
covered service dates from January 1, 1996 to December 31, 1999.  During the
period, the Hospital submitted charges for observation services totaling $1,323,568
on 2,637 claims.  We reviewed a statistical sample of 100 claims containing
observation services and determined that 63 claims did not meet Medicare requirements.  The
Hospital billed Medicare for observation services that did not meet Medicare criteria,
resulting in an estimated overpayment of $165,125.  We recommended the Hospital
reimburse Medicare the overpayment  of $165,125.